<html>
<title> - CLOSING THE LOOP: EMERGING TECHNOLOGIES IN PLASTICS RECYCLING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                           CLOSING THE LOOP:
                         EMERGING TECHNOLOGIES
                         IN PLASTICS RECYCLING

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2019

                               __________

                           Serial No. 116-13

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-152 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="72021d32110701061a171e025c111d1f5c">[email&#160;protected]</a>                

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
PAUL TONKO, New York                 ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JAIME HERRERA BEUTLER, Washington
STEVE COHEN, Tennessee
BILL FOSTER, Illinois
                         
                         C  O  N  T  E  N  T  S

                             April 30, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    16

Written statement by Representative Daniel Lipinski, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    19

Written statement by Representative Suzanne Bonamici, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    26

                               Witnesses:

Mr. Paul Sincock, City Manager, City of Plymouth, Michigan
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. Govind Menon, Director, School of Science and Technology, and 
  Chair, Department of Physics and Chemistry, Troy University
    Oral Statement...............................................    40
    Written Statement............................................    42

Dr. Gregg Beckham, Senior Research Fellow, National Renewable 
  Energy Laboratory
    Oral Statement...............................................    58
    Written Statement............................................    61

Mr. Tim Boven, Recycling Commercial Director, Packaging and 
  Specialty Plastics, Dow
    Oral Statement...............................................    69
    Written Statement............................................    71

Discussion.......................................................    80

             Appendix I: Answers to Post-Hearing Questions

Dr. Govind Menon, Director, School of Science and Technology, and 
  Chair, Department of Physics and Chemistry, Troy University....    98

Dr. Gregg Beckham, Senior Research Fellow, National Renewable 
  Energy Laboratory..............................................    99

Mr. Tim Boven, Recycling Commercial Director, Packaging and 
  Specialty Plastics, Dow........................................   105

            Appendix II: Additional Material for the Record

Letter to EPA Administrator Andrew Wheeler submitted by 
  Representative Haley Stevens, Chairwoman, Subcommittee on 
  Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   108

Letters of support submitted by Representative Jim Baird, Ranking 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   110

 
                           CLOSING THE LOOP:
                         EMERGING TECHNOLOGIES
                         IN PLASTICS RECYCLING

                              ----------                              


                        TUESDAY, APRIL 30, 2019

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 2:20 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Haley 
Stevens [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time.
    Good afternoon, and welcome to this hearing to review the 
State of plastics recycling technology in the United States. A 
warm welcome as well to our distinguished group of witnesses. 
This is going to be an informative and engaging panel, and I am 
looking forward to hearing your testimony. I'm also 
particularly excited to welcome Mr. Paul Sincock, a local 
leader from a city in my district, Michigan's 11th District, 
who has worked for the city of Plymouth for over 40 years. How 
special to have your leadership from southeastern Michigan here 
with us in the United States capital.
    It has been a decade since the Science Committee last held 
a hearing on recycling, and the challenges have only grown. 
During this hearing, we will examine recycling technologies and 
the technology gaps that prevent more of our plastics from 
being recycled, especially in light of China's new policy to 
ban the import of the most postconsumer recycled--recyclable 
materials, including plastics, which the U.S. and other 
developing countries have been shipping there for the past 25 
years. While some businesses were selling China clean and well-
sorted plastics, others were not. This was cited as a main 
reason for the ban.
    As we'll hear from Mr. Sincock, one of the things I've 
heard from local leaders in my district are the challenges they 
are facing in maintaining their recycling programs. As waste 
management companies are no longer able to sell recyclables to 
China, they are driving up their pricing to recoup costs, costs 
that fall squarely on our municipalities and our taxpayers.
    In many cases, U.S. cities are being forced to cut, 
unfortunately, longstanding recycling programs and are instead 
incinerating recyclables or leaving them in landfills, 
releasing dangerous emissions. Americans who are trying to do 
the right thing--our consumers--for our environment, are left 
unaware that their efforts are for naught.
    Yesterday, I wrote a letter to EPA (Environmental 
Protection Agency) Administrator Andrew Wheeler to express my 
deep concern that the Federal Government is not doing more to 
buildup our own recycling and waste management infrastructure 
to help cities and States with this newfound burden. I would 
like to at this time submit the letter for the record, without 
objection.
    Plastic, most of which takes hundreds of years to break 
down naturally, has been a particular problem. We're seeing 
record amounts of plastic in our water system, including in our 
Great Lakes, because we don't have the process to take on the 
volumes of waste that we are creating.
    Plastic is unquestionably convenient, and global production 
of plastic has soared from 2 million tons per year in 1950 to 
400 million tons today. Most of our current U.S. recycling 
infrastructure is decades old and not built to process the 
amounts of plastic we have today.
    Likewise, our recycling policies haven't kept pace with 
today's plastic use. The last comprehensive Federal law to 
improve recycling is the Resource Conservation and Recovery Act 
of 1976, before I was born. The most recent publicly available 
EPA data on the economic impact of the recycling industry is 
from 2007.
    The Department of Commerce never acted on a 2007 GAO 
(Government Accountability Office) recommendation for the 
agency to develop a strategy to stimulate the development of 
domestic recycling markets. Instead, Commerce activity--or 
actively sought to build international markets. As a result, 
the U.S. failed to invest in technology and materials to make 
the recycling process more efficient.
    This is a familiar story about crumbling infrastructure, 
lost industrial capacity, and lack of leadership. However, 
China's new policy, while in the short term puts us in crisis 
mode, should also be seen as an opportunity for the longer 
term, and we need to start now.
    Our response should be to reduce and reuse more, but it is 
not realistic to think we can give up disposable plastic 
altogether. We urgently need a national strategy to build out 
our country's recycling infrastructure. It is our opportunity 
to seize. At this time, we must invest in research and 
development of sustainable materials and processes, as well as 
in standards.
    A concerted effort will make recycling more cost-effective 
for our local governments, while making it easier for the 
public to participate. In doing so, we can inspire a 
sustainable manufacturing environment, and above all, reduce 
emissions to keep our planet healthy.
    I greatly look forward to today's testimony and discussion. 
I hope it is just the beginning of this Committee's efforts to 
contribute to smart solutions in our Nation's recycling 
challenges. Thank you.
    [The prepared statement of Chairwoman Stevens follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. And the Chair now recognizes Mr. Baird 
for an opening statement.
    Mr. Baird. Well, good afternoon, Chairwoman Stevens, and I 
appreciate all of you being here with us to testify this 
afternoon, and I really appreciate the opportunity to have this 
hearing about Emerging Technologies in Plastics Recycling.
    In the 20th century, American scientists led the invention 
of synthetic plastic materials. These discoveries were 
transformative. For the first time human manufacturing was not 
constrained by the limits of nature. The creation of plastic 
also made material wealth more widespread and obtainable.
    Now in the 21st century, we must lead again in the 
development of new sustainable materials and recycling 
technologies. Investments in these key areas will ensure a 
better world for our children and our grandchildren.
    The plastics industry is one of the largest manufacturing 
sectors in the United States. The industry accounted for more 
than $430 billion in shipments and 989,000 jobs in 2017. My 
home State of Indiana has the highest concentration of plastics 
industry workers in the country, producing nearly $20 billion 
in shipments. We have an opportunity to leverage that expertise 
to develop a new circular economy for the United States, an 
economy that produces, recycles, and reuses materials to reduce 
cost and waste.
    We have witnesses today from government, academia, and 
industry who are working together on those very things to be 
able to advance them. I look forward to learning from the 
recycling challenges faced by local communities and the new 
solutions, including chemical recycling and applying robotics 
and artificial intelligence to maintain sorting. Innovation in 
these areas will help the environment and the U.S. economy.
    We all want clean rivers, lakes, oceans, and healthier 
communities. What my constituents don't want are regulations 
that will raise the cost of energy, food production, 
construction, and technology. Costly regulations, like those 
proposed in the Green New Deal, would hurt middle- and working-
class Americans the most.
    One of the wonderful things about the Science Committee is 
that we are not a regulatory committee. We are the committee of 
the future, looking to innovation and to solve problems. I'm 
looking forward to hearing from those potential solutions today 
for recycling plastic.
    Thank you, Madam Chair, I yield back.
    [The prepared statement of Mr. Baird follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. The Chair now recognizes the Chairwoman 
of the Full Committee, Ms. Johnson, for an opening statement.
    Chairwoman Johnson. Thank you very much, Madam Chairwoman, 
and good afternoon to all. I want to thank you and the Ranking 
Member for putting together this panel to draw attention to the 
important issue before us. And welcome to our witnesses.
    Plastics have become fundamental to almost every aspect of 
our lives, from food storage to 3-D printing technology, and 
have enabled us to make great technological advances. With this 
progress, however, comes a cost. Some estimates suggest that 
all Americans dispose of 22 million tons of products that could 
have been recycled every year. We produce far more plastic than 
we can properly recycle, domestically and internationally.
    The extent of plastics pollution is becoming ever more 
apparent and more alarming. Just last week, a study found that 
over 90 percent of the river flood plains in Switzerland, a 
country with one of the highest recycling rates in the world, 
were contaminated with microplastics. It is not just mountains 
and the soil which are subject to plastic contamination. We 
have all seen pictures of large masses of plastics floating in 
the oceans and washing up on the beaches around the world. A 
study in 2015 estimated that 8 million metric tons of plastic 
end up in the ocean every year. By some estimates, by mid-
century, the oceans will contain more plastic waste than fish, 
ton-for-ton. While there is little research to date, we should 
be very concerned about the impact on human health from all of 
this microplastic in our environment and our food chain.
    Complicating the challenge is China's ban on our most 
imported recyclables. As a matter of fact, it's put a couple of 
businesses in my district out of business. Too many American 
communities are facing tough decisions about whether they will 
need to cut back on what they recycle or even whether they can 
recycle at all.
    The news is not all bleak, however. There are a number of 
promising new technologies and innovations across all steps of 
the recycling pathway from collection to repurposing. These 
technologies are being developed through collaborations that 
span the lifecycle of the material and include both public and 
private partners. The goals of these efforts are to increase 
the efficiency and availability of recycling, repurpose more 
recycled plastics into high-value products, and ultimately, 
reduce the impact on the environment and human health. These 
are important efforts with a critical role for many of our 
Federal science agencies, as we will hear today.
    In conclusion, I want to echo a comment by Chairwoman 
Stevens. As we look to improve recycling technologies, we must 
step up our efforts to reduce and reuse plastics through better 
technology and smarter incentives and policies.
    I look forward to today's discussion. I yield back the 
balance of my time.
    [The prepared statement of Chairwoman Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you, Madam Chairwoman.
    If there are any other Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    [The prepared statement of Mr. Lipinski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [The prepared statement of Ms. Bonamici follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. At this time, I would like to introduce 
our witnesses. Our first witness is Mr. Paul Sincock. Mr. 
Sincock is the City Manager for the city of Plymouth, Michigan, 
located in western Wayne County, Michigan. In this role, Mr. 
Sincock is the Chief Administrative Officer of the city and is 
in charge of the day-to-day operations of the city and directs 
the city's efforts on recycling. Mr. Sincock also took the lead 
in implementing a pay-as-you-throw trash disposal system in the 
city and is a regular speaker on the topic of solid waste and 
recycling programs. He is also one of the first people who 
brought this problem to my attention.
    Our next witness is Dr. Govind Menon. Dr. Menon is the 
Founding Director of the School of Science and Technology and 
the Chair of the Department of Chemistry and Physics at Troy 
University. In 2018, Dr. Menon received a $3.2 million grant 
from NIST (National Institutes of Standards and Technology), 
one of the agencies that our Subcommittee proudly has oversight 
over, to help establish a Center for Materials and 
Manufacturing Sciences, which will focus on research into 
polymers and polymer recycling. Dr. Menon has a master's degree 
and a Ph.D. from Troy University.
    After Dr. Menon is Dr. Gregg Beckham. Dr. Beckham is a 
Senior Research Fellow at the National Renewable Energy 
Laboratory (NREL). He currently leads and works with an 
interdisciplinary team of biologists, chemists, and engineers 
at NREL on conversions of biomass to chemicals and materials 
and in the area of plastics upcycling. He received his Ph.D. in 
chemical engineering from MIT.
    Our final witness is Mr. Tim Boven. Mr. Boven is currently 
the Recycling Commercial Director for the Americas within 
Packaging and Specialty Plastics at Dow. He is responsible for 
developing new business models and growth strategies that 
monetize hard-to-recycle plastic streams in the Americas. Thank 
you for your leadership on that. This includes technologies to 
enhance mechanical recycling and chemical recycling 
technologies. He holds a B.S. in engineering from Western 
Michigan University and an MBA from Central Michigan 
University.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When you have completed 
your spoken testimony, we will begin questions. Each Member 
will have 5 minutes to question the panel.
    At this time, we will start with the 5-minute testimony 
from Mr. Sincock.

                   TESTIMONY OF PAUL SINCOCK,

            CITY MANAGER, CITY OF PLYMOUTH, MICHIGAN

    Mr. Sincock. Thank you, Madam Chairperson. I'm pleased to 
be here today and honored
    [Audio malfunction in hearing room] cycles and to get their 
materials in proper and acceptable format to the curb to allow 
our vendors to collect and process that material. We have to be 
able to do this in a cost-effective manner.
    The current market situation does cause us some concern as 
we move forward on the viability of recycling because of the 
costs that are going up. Without a viable end market for 
recyclable goods, the value of recycled goods simply goes down. 
The cost of collection, sorting, shipping all must be factored 
into the municipal equation. When the value of collective 
recyclables goes down, municipal costs go up. When that 
happens, the local elected officials have the challenge of 
either increasing the cost of recycling programs and 
collections or eliminating parts of that program and 
potentially landfilling recyclable materials.
    In my home State of Michigan, recycling ranges from 
programs not offered to a countywide drop-off site to a 
regional drop-off site to municipal drop-off sites to curbside 
programs with a bucket or a bin to curbside programs, which is 
what we use, is commonly called a trash cart you can put your 
recyclables in.
    If the cost of processing recycling goes up significantly, 
there may be a point from the municipal perspective where we 
are forced to make a choice on recycling or eliminating 
recycling efforts due to cost. Partnerships are key in our 
program between government, our vendor, residents, and end-
users. For example, our vendor provides us with educational 
materials that we can use and adapt as part of our program to 
help educate our residents.
    From a technology standpoint, our solid waste and recycling 
collection program is pretty basic for our residents. We 
provide weekly pickup of solid waste and recyclables. If--they 
have a brown cart for trash and they have a big 65-gallon cart 
for recycles as well.
    Our mission as a municipality is to help make sure that our 
residents understand what is acceptable and what is not 
acceptable as far as the recyclables go. Our municipality alone 
does not generate enough volume of materials needed to provide 
the sorting and recycling services at a cost-effective 
methodology. Fortunately, we're in a region where there are 
large contractors, and there is enough volume to handle that.
    While recycling is the right thing to do, it is also a 
business, and we must be very aware of the business side of 
recycling. Some materials have limited end markets. Some 
materials are changing faster than the capital investment cycle 
to keep up with the changes, and perhaps future technology will 
allow us to expand end markets to keep up with the changes in 
materials.
    In our small Michigan municipality, it is our job again to 
educate our residents on an ongoing basis to ensure that the 
quality of our recycled goods is clean and acceptable. 
Municipalities across the country must have cost-effective 
programs that allow our residents to easily recycle materials 
rather than throwing them in a landfill. At a minimum, it must 
be just as easy to recycle something as it is to throw 
something in the trash. Ideally, it would be easier for the 
homeowner or resident to recycle a product rather than throw it 
out.
    Thank you very much.
    [The prepared statement of Mr. Sincock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. And now we will hear from Dr. Menon.

                 TESTIMONY OF DR. GOVIND MENON,

         DIRECTOR, SCHOOL OF SCIENCE AND TECHNOLOGY, AND

           CHAIR, DEPARTMENT OF PHYSICS AND CHEMISTRY,

                         TROY UNIVERSITY

    Dr. Menon. Chairwoman Stevens, Ranking Member Baird, and 
the distinguished Members of the Subcommittee, thank you for 
including me to this discussion.
    Chairwoman Stevens. Let's just get your mic on. Hold on. We 
want the world to hear you.
    Dr. Menon. So do I. Chairwoman Stevens, Ranking Member 
Baird, and the distinguished Members of the Subcommittee, thank 
you for including me in this discussion concerning the 
recycling of plastics.
    I've been asked today to talk about the recently 
established Center for Materials and Manufacturing Sciences at 
Troy University, but before I do so, let me begin with a few 
facts that will place a center such as ours in context.
    According to the EPA, currently, the plastics recycling 
industry is operating below capacity with employment figures 
comparable with the U.S. automotive industry. Undoubtedly, an 
increase in supply will increase employment and capital 
investment.
    One of the issues facing the recycling industry is the 
practical limitations on the large-scale recyclability of the 
existing types of plastics available in the market. Simple 
factors like color, odor, strength, and malleability determine 
the value of recycled plastics. Additionally, environmental 
concerns behind the breaking down of plastic products loom the 
industry.
    Currently, there is over 200 billion pounds of plastic that 
can be shaped, extruded, or otherwise transformed into new 
products. However, at present, the recovery rate for all 
plastics in the United States is only about 9 percent. Of the 
two main plastics, PET (polyethylene terephthalate) and HDPE--
high-density polyethylene--the United States has a recovery 
rate of roughly 30 percent. The need for more plastics 
recycling is made evident and undeniably provides a case for 
our dedicated center of research.
    The establishment of the Center for Materials and 
Manufacturing Sciences was made possible by a successful $3.2 
million grant awarded by NIST. The center will serve as a fully 
integrated multidisciplinary research facility that will bridge 
various majors and academic ranks. During the initial phase of 
establishing the center, one of the primary focuses will be on 
developing a state-of-the-art laboratory in polymer recycling. 
This major emphasis will aid to advance capabilities and offer 
support structure for local and national industries. In the 
long-term, the center will help address plastics recycling from 
a holistic perspective with complex issues of collecting, 
sorting, and cleaning with characterization.
    Moreover, the center will assist to engender a well-
equipped next-generation workforce to these industries through 
appropriate course and program offerings. Students trained at 
the center will participate and be engaged in real-life, real-
time industry projects.
    In order to glean the larger issues at stake, at its 
inception, the center hosted a road-mapping session at the 
recent annual Plastics Recycling Conference held here in 
Washington, D.C. I will briefly discuss the three salient 
points raised by the nearly 200 attendees of the conference 
workshop.
    The primary issue facing the recycling industry is the 
supply of feedstock. If plastics recycling industry depended on 
the various States to supply their plant with recyclable 
feedstock, most plants could only run their facilities for a 
few days each year.
    The second largest issue facing the private sector is 
access to current technology. As the demand has continued to 
grow, there is an immediate need for resins with letters of 
nonobjection from the FDA (Food and Drug Administration). 
Collection infrastructure, sorting technology, and resin 
chemistry is limited.
    The third and final issue that was raised during the 
workshop was related to the environmental impact of the 
recycling process. The point is here--the point here is that 
the technologies developed must be flexible and incorporate 
universal utility because the market for material changes 
rapidly, and materials available today may not be available the 
next week.
    Overall, the above questions make visible a significant 
lacunae in contemporary research and plastics recycling that 
can be effectively translated to sustainable goals in the 
industry. The center will focus on short-, medium-, and long-
term issues to be resolved to negate these existing gaps. The 
specific projects will be carefully selected, prioritized, and 
undertaken in partnership with industry, community, and other 
stakeholders.
    The nearly zero carbon footprint technology of plastics 
recycling must be scaled up to meet the demands of global waste 
reduction. Ultimately, the Center for Materials and 
Manufacturing Sciences at Troy University will identify, 
develop, and implement solutions to the problems in 
contemporary plastics recycling by linking academia, industry, 
and community. Thank you.
    [The prepared statement of Dr. Menon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Dr. Beckham.

                 TESTIMONY OF DR. GREGG BECKHAM,

                     SENIOR RESEARCH FELLOW,

              NATIONAL RENEWABLE ENERGY LABORATORY

    Dr. Beckham. Chairwoman Stevens, Ranking Member Baird, and 
Members of the Subcommittee, I really appreciate the 
opportunity to be here with you today to discuss the critical 
need for plastics recycling and upcycling and how foundational 
science can contribute to this. It has the potential both to 
protect our Nation's environment, as well as strengthen the 
economy.
    So briefly today what I'll address is primarily around two 
questions. One is how do we deal with the plastics that we 
generate today, and the second is how do we make tomorrow's 
plastics recyclable by design?
    So plastics, as certainly echoed in the opening remarks, 
are essential to modern life. We rely on them, and they made 
our lives better. As we all know, though, they're choking our 
world's oceans, they're killing aquatic and terrestrial life, 
they're in the air we breathe and the food that we eat. And 
certainly reducing individual plastic use must be part of the 
solution, but plastics should not be demonized.
    On top of this, today's recycling industry, from my 
perspective, being mostly mechanical in nature, is a 
downcycling operation. When you put this PET bottle into the 
recycling bin, if it is recycled, it's much lower in value 
because its material properties are compromised, and it will 
tend to go to things that are lower value like carpet or 
clothing, which still ultimately end up in the landfill. And so 
there's a very little--in my opinion, very little economic 
incentive now to do plastics recycling with the current 
paradigms we use. Of course, we all know that China has 
recently banned the imports of plastic waste as well, which is 
causing massive stress on existing domestic recycling. And so 
we need to think beyond today's recycling paradigm.
    And our ultimate goal, as, again, was echoed in the opening 
statements, is to develop foundational science that can 
transition us from a linear flow-through economy where this is 
sourced from petroleum and put into the trash or the recycling 
bin and likely is still not recycled but downcycled to an 
economy that is circular such that this material could stay in 
continuous use.
    And to this end, chemical recycling or the use of 
catalysts, microbes, or enzymes to break down plastics into 
building blocks and then build them back up into new, virgin-
like materials offers a more sustainable, innovative, and I 
think profitable approach around which we can completely 
rebuild and rethink the American recycling industry.
    Plastics breakdown is very similar to the breakdown of 
waste plant material like agricultural residues that you would 
find from corn stover, for example. Plastics are diffusely 
distributed just like biomass is. They're costly to recover 
just like biomass. They're also incredibly durable and hard to 
break down, just like cellulose is. It's the reason why cows 
need four stomachs and we don't get any caloric value from 
celery, for example.
    The advent of a lignocellulose-based economy, as all of you 
know, required sustained investment in science and engineering 
and technology, and over the last 40 years, there have massive 
gains in the viability of biomass conversion such that the 
United States and the world I think is on the cusp of utilizing 
biomass for renewable fuels, chemicals, and materials. Dealing 
with plastics, just like with biomass, will require sustained 
commitment to develop these viable processes.
    One obvious option in the case of chemical recycling is to 
take this PET bottle and convert it back into a PET bottle that 
has the same properties. This PET bottle could be broken down 
using chemical catalysts or enzymes into its building blocks 
and put it back into another bottle like this.
    Conversely, and I think more interestingly, there's a 
potential for the concept of plastics upcycling, so put this 
into the recycle bin, break it down into building blocks, and 
then put it into something that has a much longer lifetime and 
a much higher value. For example, this PET bottle can be turned 
into building blocks that will go into a composite material in 
a car. It can go into a wind turbine. It can be made into 
Kevlar. It could be made into other things like this.
    This idea of upcycling or the creation of more valuable 
product from a waste material I think will incentivize the 
economics of plastics reclamation, which is really what we 
ultimately need. And examples like this need to be developed to 
help stem the flow of plastics into the environment and to 
landfills.
    Second, today, most plastics are made from petroleum-based 
building blocks with recycling as an afterthought. This is of 
course unsustainable. Foundational science in the last decade 
or so, especially funded in the United States has demonstrated 
an accessible bio-based building block portfolio around which 
we can source new materials to make bio-based plastics.
    At the same time that we're building new plastics, we need 
to think about how they can be recyclable by design at the end 
of their life. And in this redesigning new materials from bio-
based resources, we should inherently design these materials to 
be recyclable at the end of their lifetime.
    In summary, more research is urgently needed in the concept 
of plastics upcycling and enabling recyclable-by-design 
plastics. In the last episode of the Blue Planet II, which some 
of you may have seen, Sir David Attenborough remarks, quote, 
``We are at a unique stage in our history. Never before have we 
had such an awareness of what we're doing to the planet and 
never before have we had the power to do something about that. 
Surely we have a responsibility to care for our blue planet. 
The future of humanity and indeed all life on earth now depends 
on us.'' He was talking about the plastics problem in this 
case.
    So in my opinion, dedicated, aggressive, and federally 
supported R&D investment that harnesses the innovation of the 
U.S. research community must be brought to bear to deal with 
today's plastics through the development of chemical recycling 
of today's plastics, as well as thinking about how to make 
tomorrow's plastics recyclable by design. Developing processes 
that can achieve this economic viability should enable the 
creation of a completely new industry in the United States and 
enable millions of jobs. Thank you.
    [The prepared statement of Dr. Beckham follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Mr. Boven.

                     TESTIMONY OF TIM BOVEN,

                 RECYCLING COMMERCIAL DIRECTOR,

              PACKAGING AND SPECIALTY PLASTICS, DOW

    Mr. Boven. Chairwoman Stevens, Ranking Member Baird, 
Members of the Subcommittee, it's my privilege to address you 
on the topic of ``Closing the Loop: Emerging Technologies in 
Plastic Recycling.'' My name is Tim Boven. I am the Recycling 
Commercial Director at Dow in our Packaging and Specialty 
Plastics business. My organization is responsible for business 
solutions that enable a circular economy.
    Right now, what's been said, we live in primarily a linear 
economy where the goods we use every day are manufactured from 
raw materials, sold, used, and then discarded. Applying the 
principles of circular economy will allow us to optimize 
resources to minimize the extraction of new raw materials and 
ultimately reduce the amount of waste going to landfills.
    Recycling is foundational for circularity, and it's good 
for the economy. Investment in mechanical and chemical 
recycling will spur domestic investment supporting business 
growth. If widely adopted, advanced recycling processes could 
result in growth in new U.S. jobs and economic output. Dow 
believes plastics are too valuable to be lost as waste, and as 
such, innovation is needed to retain its value.
    Plastics provided many benefits to society, including 
reducing food waste, improving energy efficiency, reducing 
material usage, and improving functionality. What society needs 
and where the industry is now focusing is on effective 
recycling solutions that retain the value of plastic after its 
initial use.
    Collection is a key step in the recycling process. If the 
material is not collected effectively, it cannot be recycled. 
The U.S. recycling system is highly fragmented and variable, 
resulting in unequal access and confusion. The challenge 
equates to high contamination levels in collected recycling. 
Much of the U.S. has a single-stream collection with sorting 
left to material recovery facilities, or MRFs. Many MRFs are 
privately owned, and their capabilities vary widely. Most were 
designed for paper, glass, and metal. Technology and process 
improvements are needed in this space to improve the quality 
and consistency of the plastic coming from these facilities.
    Once we have collected it, we can recycle it. Plastics can 
often be much more challenging to recycle than other materials 
because of its low density and wide range of plastics 
collected, which may be incompatible. Innovation is needed to 
improve the ability of equipment to sort and process hard-to-
recycle materials.
    Two terms commonly used to describe plastic recycling are 
mechanical recycling and chemical or feedstock recycling. 
Traditional mechanical recycling is an excellent first step in 
getting the value from used plastic and has environmental 
benefits. However, mechanical recycling has a significant 
limitation in the end-product performance and is only suitable 
for a limited number of high-volume applications. It is 
extremely difficult to remove all the contaminants such as 
dirt, inks, fibers, adhesives, et cetera. All are included in 
the recycling stream. All impact performance.
    Dow is a supporting innovation in mechanical recycling 
through application development, high-performance material 
development, allowing for the incorporation of PCR (post-
consumer recycled plastic), compatibilization technology to 
minimize contamination. Even with these advances, mechanical 
recycling of all plastics is a significant challenge, 
particularly in high-end applications like those that require 
FDA approval.
    These challenges require innovation that cannot be 
addressed with processes like feedstock recycling. Feedstock 
recycling is an advanced recycling process of depolymerizing a 
plastic back to its original building blocks where it can be 
then introduced into the front end of the polymer manufacturing 
process. This process is very similar to paper recycling where 
it's taken back to fiber. Feedstock recycling has the potential 
to produce recycled plastic with virgin-like performance 
capable of being used in the most stringent applications. Dow 
is actively researching plastic conversion processes of 
pyrolysis and gasification. We have projects ranging from 
process technology through the effective conversion to plastic.
    Increasing recycling rates and expanding the materials 
collected will not happen on its own, and there are important 
steps Congress can take to enable growth in this sector. This 
includes support on uniform definitions on recycling so that 
new technology is not precluded, standards for mass-balance 
accounting to certify recycled plastic content, recycling 
infrastructure funding, and to support in the development of 
new end markets for recycled plastic. I've expanded on these 
topics in my written statement.
    In conclusion, thank you for your time and the opportunity 
to testify on this important topic. We believe the public and 
private sectors can partner together to advance innovation and 
accelerate recycling. Dow looks forward to working with 
Congress on these issues and answering any questions the 
Committee may have.
    [The prepared statement of Mr. Boven follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you so much.
    At this point we are going to begin our first round of 
questions, and the Chair is going to recognize herself for 5 
minutes.
    Undoubtedly, where we see challenge and identify challenge 
as a Nation, we readily want to turn that challenge into 
opportunity, and that is something that I heard from all of you 
in your scope of work and in your testimony.
    Mr. Sincock, I'd like to just drill down for a minute with 
you. Since these new changes from China have been implemented, 
could you just explain a little bit about what our small town 
of Plymouth, the city of Plymouth, has been experiencing with 
its recycling?
    Mr. Sincock. Certainly, the city of Plymouth, we have 
been--we're right toward the end of our contract with our solid 
waste and recycling hauler, so we've been OK at this point, but 
several of our neighboring communities, you know, we all talk, 
and are feeling the pinch and, you know, we have also had our 
contractor come to us and say, look, recycling costs are going 
up. We need more help. We need you to take a look at, you know, 
perhaps amending our contract, those kinds of issues.
    So we're seeing that there's more issues with the 
recycling, especially plastics, in trying to make sure that our 
residents are able to still have a program that is viable from 
a--you know, an operational standpoint, you know, that's not 
cost-prohibitive. And that's really where the--tends to be the 
trend is going at this point, is significant cost increases 
from our haulers and recyclers related to the product, and that 
obviously passes down to our residents.
    Chairwoman Stevens. And as you have spent time educating 
the public on the benefits of recycling or encouraging them to 
recycle, what challenges have you run into? What things have 
you seen that worked best in terms of recycling campaigns? And 
have you started to hear about this fear of cost?
    Mr. Sincock. Well, certainly one of the things--the big 
challenges that we have is do we back our recycling programs 
down? You know, we've spent so much time and effort building up 
the recycling programs, you know, our community has very high 
and impressive rates of recycling in Wayne County, but it also 
becomes an issue for our residents if we are going to back down 
from the really good programs that we currently have and the 
amount of education that we put into it. And it's a hard sell 
at the municipal level that--I call it the reach-out-and-touch-
me level of government where, what do you mean, we're not 
recycling whatever the product may be? That's a hard, difficult 
conversation to have with our residents.
    Chairwoman Stevens. Do you see a revenue opportunity for 
the city in recycling or, you know, continuing to build out 
your programs? And are there ways that the Federal Government 
can help you to meet those goals?
    Mr. Sincock. Well, I think what the issue is on the revenue 
side is--and it depends on the municipality. Our particular 
contract, we wanted to stay out of the swings in the market, so 
in our particular case the vendor takes all of the risk as to 
market upside and market downside, so we're not affected. Our 
price stays constant. Now, we don't get the benefit of, you 
know, when recycling, you know, markets go up and the 
contractor gets to receive some benefits there, but on the 
flipside of that, we don't have to deal with the downside.
    And so that's--you know, other municipalities get--they 
split the value of the recycles between the vendor and the 
community. The community will get a small percentage of the 
recyclables. But as the market goes down, that percentage goes 
down to near zero or less than zero.
    Chairwoman Stevens. We have our storied traditions and best 
practices in Michigan with our recycling programs and our 
buyback programs. I think it's evident that there are certainly 
opportunities and revenue opportunities, as well as sincere 
environmental considerations for us to meet, and yet the onus 
is on our consumers and it's on our taxpayers, and it's sort of 
reliant on the altruism of our residents to recycle and to not 
throw--I commend all of you who talked about the greasy pizza 
box in your testimony because--at least two of you did. But in 
terms of how we're stymied or how we can meet some of our 
bigger goals and some economic opportunities. You know, I 
commend our last two witnesses for mentioning the circular 
economy and what that means for us and how in sync we really 
are.
    I'm out of time, so I'm just going to conclude with one of 
the results that we want to take from this hearing is 
identifying Federal opportunity to partner with you in your 
respective fields and portfolios of work to lead to increased 
recycling, meeting environmental goals, as well as economic 
opportunity based on technological advancement.
    And, with that, I'm going to recognize my colleague, Mr. 
Baird, for 5 minutes.
    Mr. Baird. Thank you, Madam Chair.
    Mr. Boven, the Subaru plant in Lafayette, Indiana, which is 
in my district, has been a zero-landfill facility since 2004, 
and that reflects a commitment by the company to have as little 
environmental impact as possible. Can you elaborate for me what 
Dow and the plastics industry in general has been doing to work 
with the front-end sustainability idea and not just the back-
end sustainability in producing products?
    Mr. Boven. Yes, sure, thank you, Congressman. So at Dow I 
can speak specifically. We've had a series of 10-year 
sustainability goals. Now, we're in our third generation of 
those. They go out through 2025. And the sustainability goals 
that we have at our company are really around defining 
blueprints for designing sustainability into the future. So 
when you talk about plastic circularity in particular, the big 
initiative that we're very involved with is designed for 
recyclability. How do we help our customers, how do we help the 
marketplace design products that can be recycled in the end?
    Today, a lot of packaging, as an example, has gone to very 
complex structures, which create problems for the recycling 
industry. And so what we're working with them on is all 
polyethylene-type structures, as an example. And the reason 
we're doing that is because polyethylene is one of the largest-
collected plastics today, so if we can get more materials into 
common materials that can be collected, that can help with 
increasing plastic recovery and plastic recycling.
    This is one example. We have a lot of initiatives of 
materials science in terms of increasing resins that can 
incorporate recycled content, as well as end market. We're 
working on new market applications so we can create new large-
volume applications to create these markets that people say 
don't exist. This is where we're spending a lot of our time.
    Mr. Baird. Thank you. And continuing on in that same vein, 
in your testimony you discussed the benefits of chemical 
recycling. What's needed to scale up and bring down the cost of 
chemical recycling and make it more viable in the United 
States? Anything?
    Mr. Boven. That's a very good question. One of the things 
that we're looking at aggressively is, how do we address that 
very topic of scale? When you look at the petrochemical 
industry today, it's been capitalized around very large fossil 
fuel deposits. When you talk about using plastic as a 
feedstock, plastic is everywhere. So a significant challenge 
that we are working through and trying to address with value 
chain partners is how do we aggregate plastic and bring it to a 
central location so we can get the appropriate amount of 
feedstock to build the appropriate scale we need to be 
meaningfully effective?
    At the same time, we're working on the capital intensity 
equation to try to bring down the capital intensity per metric 
ton of product produced so we can put feedstock recycling 
located where the feedstock is, in this case, waste plastic.
    Mr. Baird. Thank you. Another question--have I got time I 
think? Dow and the other companies are investing heavily in new 
sustainable material and in recycling technologies. What's the 
market incentive for industry to invest in research in that 
area?
    Mr. Boven. Well, quite frankly, society is demanding it. 
The plastic waste issue, you can't turn on the television, you 
can't go to the internet without seeing it. And society wants 
solutions to this. So we look at this as, yes, it's a big 
challenge, but it can be an opportunity for those who want to 
make those investments today and work toward addressing the 
problem of the future. So this is how we see it. It's going to 
be absolute, and it's where we're putting a lot of time and 
effort.
    Mr. Baird. Thank you. And one last question if you will.
    Mr. Boven. Sure.
    Mr. Baird. How would developing standards for plastic 
materials and recycling help advance the industry in the United 
States and maintain America's leadership in that field?
    Mr. Boven. Standards in what regard?
    Mr. Baird. I was thinking about any of the things that 
relate to regulation of plastics or the quality of the 
plastics.
    Mr. Boven. Thank you. So one thing that will help certainly 
is to create definitions around what recycling is. Today, when 
we look at what people want and require, it's high-end recycled 
material. That's not going to be possible without advanced 
recycling technologies. Today, there is no universal definition 
of recycling. And as we look to bring forward new technologies, 
we want to make sure that technologies like pyrolysis, 
gasification, solvolysis, those types of processes are included 
in the definition of recycling. And this would be increasingly 
important as people look to put policy around. We know there 
are States that are having these discussions, and if they start 
putting policy around recycling targets, definitions will 
follow. And we want to ensure that there's broad definitions 
that don't preclude technology.
    Mr. Baird. Thank you very much. And I yield back my time.
    Chairwoman Stevens. The Chair now recognizes Mr. McAdams 
for 5 minutes.
    Mr. McAdams. Thank you, Madam Chair, for convening this 
timely and important hearing.
    And thank you, Mr. Sincock, Dr. Menon, Dr. Beckham, and Mr. 
Boven, for your testimony here today.
    In my previous role, I was the Mayor of Salt Lake County, 
and I worked to enhance our waste management practices to 
achieve our environmental goals, and it often aligned with our 
fiscal objectives. We found that they were oftentimes the same 
thing. Whether collecting green waste to break down and resell 
or capturing methane leakage for energy generation or landfill, 
technologies made our waste management greener, smarter, and 
less costly to taxpayers.
    So I'm excited today to have the opportunity to discuss how 
we can make use of new and forthcoming technologies to make our 
plastics sorting, management, and recycling more effective and 
profitable in recycle and upcycle applications. We've also seen 
some of the challenges as global interests in some--in some of 
our recycling has waned, and so--my first question is for you, 
Mr. Sincock.
    As boots on the ground in your town, what's been the most 
effective tool that you've used to help residents to improve 
their recycling practices, the individual practices?
    Mr. Sincock. Education, and it's ongoing and multifaceted. 
So it's mailers to the home, it's stickers on the trash carts, 
it's social media. All of those things are a critical element 
to ensuring that the plastics industry has a quality product to 
deal with.
    Mr. McAdams. And what's the most common request or 
complaint that your community voices about your recycling 
program or what have you done to remedy any concerns that were 
raised?
    Mr. Sincock. The most common complaint is that we don't 
recycle enough----
    Mr. McAdams. Yes.
    Mr. Sincock [continuing]. And that--you know, it becomes a 
challenge as to how do we have a product that somebody else is 
going to use.
    Mr. McAdams. So, Dr. Beckham, in your testimony you said 
that recycling alone can save 40 to 90 percent of the inherent 
energy in plastics relative to the production of new plastics. 
Does this apply to both chemical and mechanical recycling?
    Dr. Beckham. Most of those statistics were currently 
obtained in the context of standard today's mechanical 
recycling.
    Mr. McAdams. Do we have good estimates for potential energy 
savings using chemical recycling?
    Dr. Beckham. Right. I think judicious lifecycle 
assessments, techno-economic analysis, as well as, just 
generally supply chain energy analyses are forthcoming, but we 
have looked at PET upcycling, for example, using chemistry to 
produce two composite materials, and they have shown over 
standard composites manufacturing can save up to 60 percent of 
the supply chain energy and reduce greenhouse gas emissions 
quite considerably as well.
    Mr. McAdams. It's promising. Dr. Menon, what technologies 
could help us--could help simply--to simple--simplify 
decisionmaking for Americans as they sort their waste into 
trash or bin recycling every day? And maybe that's generally as 
a question, but I've also--there have been some experimental 
technologies that I've heard about or haven't had the 
opportunity to actually witness them but--about single 
streaming both waste and recycling, and your thoughts on that.
    Dr. Menon. In terms of technology, the real issue is access 
to technology. It's one thing for academia to have 
instrumentation. It's another thing entirely for recycling 
facilities to have instrumentation. So perhaps one of the 
things that we should look into particularly from the point of 
view of academia is to make technology affordable. Can we 
reinvent instrumentation that is more affordable and more 
accessible? Recycling companies make pennies to a pound, so 
every dollar, every pound of recycling material matters. So 
they're not able to invest necessarily into technology, so 
maybe a new generation of affordable technologies is what we're 
thinking of at this point rather than reinventing technology as 
well. But, as was mentioned by Dr. Beckham, of course chemical 
recycling is--it's virgin territory in terms of large-scale 
recycling, so that is something we would be considering as 
well.
    Mr. McAdams. So I guess my question to all of you, and I'm 
about out of time, but what infrastructure are we lacking as a 
country? What--and what can we do to--as a Congress to further 
incentivize these investments in R&D and then deployment of 
technology?
    Mr. Sincock. Well, I think the issue for us at the local 
municipal level is where's the end product, and is there a use, 
and then how do we cost-effectively collect that material? And, 
you know, mixing it into a single stream is interesting.
    Mr. McAdams. I've seen the technology. As a Mayor, it was 
troubling to me because I was--the technology is there. My 
concern was is it viable and in experimenting with that, do we 
lose all the ground we've gained with educating our consumers 
on sorting going single stream, then have it fail and we just 
lost.
    Mr. Sincock. Exactly.
    Mr. McAdams. Yes. Thank you. I yield back.
    Chairwoman Stevens. The Chair now recognizes Mr. Balderson 
for 5 minutes.
    Mr. Balderson. Thank you, Chairwoman.
    Thank you all for being here this afternoon.
    This question goes to Dr. Menon and Mr. Boven. I had a 
question for all of you, but the gentlemen down there took my 
question, so, currently, municipalities set their own recycling 
standards depending upon what the facility in the area is 
capable of processing. They can vary widely from city to city 
depending upon the local infrastructure.
    Dr. Menon, you've touched on NIST's efforts to create 
processing standards in this space. Recently, the university, 
as you stated, received a grant to work on expanding this. 
While I understand the draw toward this, I remain concerned 
that the Federal Government is not best suited to achieve this 
goal. Ensuring that recycling plants across the country have 
the same processing abilities, however, would lessen the amount 
of plastic that needs to be exported for processing. Could you 
speak about what you have found in your research on this 
subject?
    Dr. Menon. Thank you very much for the question. I do 
believe NIST is the right agency. In particular, we don't have 
a universal standard when it comes to recycling plastics. If 
you look at the resin identification code, the numbers 1 
through 7, it tells you the polymer content in a bottle. It 
doesn't tell you anything about the contaminants, nor does it 
tell you how to recycle the product. So setting these standards 
is a gamechanger when it comes to recycling, and setting 
standards is what NIST does. Thank you.
    Mr. Balderson. Thank you. Mr. Boven, are the suggestions 
that Dr. Menon offered something that Dow could see working in 
the marketplace?
    Mr. Boven. Yes, thank you for the question. Yes, the answer 
is yes. In fact, there's--this is--the Sustainable Packaging 
Coalition where that group has already developed and working 
toward developing recycling standards for packagers to put on 
their labels, both paper and plastic, the how-to recycle label. 
And it gives implicit instructions to consumers on the packages 
they buy on how to recycle it, whether it be not recyclable or 
store drop-off. Those types of instructions are put on it. 
That's a first step, and that is working at cleaning up the 
recycling streams today because one of the issues is you have 
wish cyclers who put everything in their single-bin collection 
system, which actually creates a lot of problems for the MRFs 
and you have a lot of rejected material because of that, so it 
starts with cleaning up what goes into the recycling bins 
first.
    Mr. Balderson. OK. Thank you very much. I yield back my 
remaining time, Madam Chair.
    Chairwoman Stevens. Yes. The Chair would now like to 
recognize Mr. Foster for 5 minutes.
    Mr. Foster. Well, thank you, Madam Chair, and thank you to 
our witnesses.
    Let's see. Most of the talk so far has been on 
thermoplastics, PET and polyethylene. Are thermosets and cross-
linked plastics pretty much a lost cause for recycling or are 
there enzymatic systems that may depolymerize them and allow 
them to be recycled?
    Dr. Beckham. So I'll take that. So thermosets today are 
indeed very challenging to recycle because it's hard to get 
them to flow in the context of the mechanical and thermal 
recycling paradigms we have now. Thinking forward to 
recyclability by design, there is an emerging field in polymer 
science around this concept of vitrimers where you have cross-
links that are able to be chemically broken down, so you would 
imagine taking a thermoset, a composite material, dumping it 
in, for example, to acid, and breaking that down into flowable 
polymers again. There's an enormous opportunity here for 
recycling.
    A wind turbine blade, which is a cross-linked thermoset, 
which we can't do right now, we grind it up and put most of it 
into the landfill or burn it. But I think emerging chemistries 
for recyclability by design for composite materials that would 
go into a wind turbine or car or snowboard or whatever have 
enormous potential, so----
    Mr. Foster. And do structural fibers that are, you know, 
carbon fibers or other fibers put in, do those make life really 
rough for recycling as well?
    Dr. Beckham. Certainly, traditional polyacrylonitrile 
carbon fiber today is very challenging from a recyclability 
perspective. Again mostly, it's thermal energy recovery is sort 
of the place that's routed to. There are emerging chemistries 
from the academic community and generally the U.S. research 
community on ways to break down polyacrylonitrile-based carbon 
fiber, but that's incredibly challenging. So, again, I think we 
need to rethink how we're putting those carbon fibers together 
and think about recyclability by design, as well as lifetime 
performance----
    Mr. Foster. And so by the thermal--you mean that is 
pyrolysis and gasification, what you're saying----
    Dr. Beckham. As well as just simply burning it for energy 
recovery in some cases.
    Mr. Foster. OK. And actually, Mr. Boven, you mentioned in 
addition to pyrolysis and gasification something that sounded 
like solvolysis or something. What was--that's not something 
I'm familiar with.
    Mr. Boven. Yes, solvolysis. So solvolysis is a solvent-
based process. It's commonly used for PET and nylon. Those 
polymer architectures are well-suited for that where you can 
use a solvent to break it down into monomer and then you can 
build it back up.
    Mr. Foster. OK. All right. So it's a solvent. Got it. I 
understand. I think I used to do that with Styrofoam and model 
airplane glue as a child. Now, see, look at that, there's a lot 
of common experience in that, the first time you tried to do 
that and it didn't end well.
    So what fraction then of the current plastic production 
stream are easy targets like PET and high-density polyethylene? 
Is that 80 percent of the plastics production that are things 
we ought to be able to recycle or are there just a million 
small streams that will all each have to be dealt with?
    Mr. Boven. Well, polyolefins are--polyolefins being 
generically polypropylene, polyethylene, are the largest 
polymer family used in packaging-type applications, non-durable 
applications, applications that have a life that's less than, 
say, a year. And those are the targeted--where we should put a 
lot of effort in recycling and recovery, and they have large 
end markets as well. So if you can recover those materials, you 
have the opportunity to recycle those and find homes for them.
    Mr. Foster. But is that 50 percent of plastic production or 
just another 20-percent hunk?
    Mr. Boven. No, it--I'd have to get back with you, sir, on 
that exact question, but those two polymer families are the 
largest. It's directionally just south of 50 percent are 
polyethylene-type materials.
    Mr. Foster. OK. And, now, according to Wikipedia, if you 
look at polyethylene terephthalate, a majority goes into 
fibers. And so is it--how do recycle fibers if someone makes, 
you know, a Dacron shirt or something like this? Are you really 
going to recycle that? The number in Wikipedia was about 50 
percent going into fibers, and is that a whole separate 
struggle to even collect it in a pure stream?
    Mr. Boven. The challenge there is collection of textiles, 
yes. You have to collect it, and then you would have to put it 
in some sort of chemical recycling process to effectively 
recycle it.
    Mr. Foster. Right. And these are often mixed with cotton 
and so on, and so it's a difficult--are there any plausible 
ways to make that happen, to recycle clothes that are made with 
multiple fibers?
    Mr. Boven. So chemical recycling, feedstock recycling has 
the opportunity, depending on the technology route that you 
take. Gasification, as an example, is a technology route that 
can take any organic material, so it can be biomass, it can be 
fiber, it can be plastic. You can put it in there. That will 
break it down to fundamental syngas, and from syngas, we can do 
lots of different things with it.
    Dr. Beckham. If I can just add one thing in terms of PET 
mixed with cotton, which is a lot of polyester clothing, 
enzymatic processes are exquisitely selective to go in and 
break both the Ester bonds in PET, as well as the ether bonds 
in cellulose or cotton to make sugars and mixtures of these 
building blocks of PET. So I think there's a lot of potential 
there as well.
    Mr. Foster. OK. Thank you, and I yield back.
    Chairwoman Stevens. The Chair now recognizes Mr. Gonzalez 
for 5 minutes.
    Mr. Gonzalez. Thank you, Madam Chair. Thank you, witnesses, 
for being here today.
    I first want to use this time to recognize the University 
of Akron's College of Polymer Science and Polymer Engineering, 
which is recognized as being one of the world's best in the 
polymer sciences. The University also does great work getting 
young students excited about the polymer sciences through their 
Akron Global Polymer Academy, which provides opportunities for 
teachers and students of all ages to experience the world of 
polymers by organizing in-school visits and field trips to the 
university's research facilities. They're doing a fantastic 
job. Polymer research and development has been huge in 
northeast Ohio, where I'm from, for my entire life and before 
it, so we're proud of that.
    I want to take my time to really just understand this a 
little bit better frankly. And my first question will be to Mr. 
Boven. I'll probably stay with you if that's OK. I first want 
to understand the interplay between mechanical and chemical in 
the context of the circular economy. It strikes me, as I read 
your testimony, that chemical is probably how we get there 
ultimately. I'm sure there's obviously a role for mechanical, 
but can you just kind of walk me through that for a second?
    Mr. Boven. Yes, sure, thank you for the question. So when 
you look at the--there is a relationship between mechanical and 
chemical recycling in the sense that we would suggest that, if 
it can be mechanically recycled, it should be. It should be 
because there's a lower carbon footprint. It's not as energy-
intensive, and it can be deployed locally, right? You can do 
mechanical recycling at a very local level very effectively. 
The challenge with mechanical recycling has always been finding 
end markets----
    Mr. Gonzalez. Right.
    Mr. Boven [continuing]. Because you'll have some polymer 
degradation. Products that cannot be introduced into mechanical 
recycling system effectively are the products that should go 
into chemical recycling because at that route you can address 
the contamination issues that come. And in fact, when you talk 
about MRFs today, on average, about 25 to 30 percent of the 
material going into a MRF is actually rejected because it's 
too----
    Mr. Gonzalez. OK.
    Mr. Boven [continuing]. Highly contaminated to be 
processed. You can feed that into a chemical recycling process 
to then recycle the product.
    Mr. Gonzalez. Thank you. And then my second question, when 
it comes to chemical recycling, and I'll score these 1, 5, and 
10, so if 1 is sort of we understand what needs to happen but 
we haven't really started developing, 5 is our tech is viable 
but we need to find business models to get it deployed more in 
the market, and then 10 is we understand the tech, we 
understand the business model, we just need to deploy and 
scale, where are we on chemical manufacturing?
    Mr. Boven. I would put us at a 5----
    Mr. Gonzalez. OK.
    Mr. Boven [continuing]. Quite frankly.
    Mr. Gonzalez. OK.
    Mr. Boven. When we're talking about chemical manufacturing, 
we're talking about mature technologies like gasification, 
pyrolysis. They've been around for a long time. They have not 
been used widely for the purpose of recycling plastic, and so 
we're talking about putting a value chain together and 
different partners together to aggregate the plastic to get it 
to a chemical recycling facility. From there, you turn it into 
an intermediate, and then you have to integrate it into the 
current petrochemical industry.
    Mr. Gonzalez. OK.
    Mr. Boven. So we have to work on the business model side.
    Mr. Gonzalez. OK. So it's a combination of business model. 
Once we get there, then we can scale it.
    My last one--and I kind of hate to go here, but these paper 
straws, they are my pet peeve. I took my son the other day to 
get a milkshake. He's 1-year-old. We do this on Saturdays, 
paper straw shows up, the thing disintegrates before we're a 
third of the way through. He's also throwing whipped cream at 
my face, so, you know, all kinds of things going on there.
    I personally despise them. On top of that, only .025 
percent of plastic that's flowing into the ocean is straws, 
plastic straws. They also require more energy to manufacture 
than plastics. So I kind of want to just have you give me some 
hope that maybe Dow is working on either new technologies, new 
bioplastics that are more efficient and better for the 
environment or that we're making progress on the sort-ability 
because my understanding is the reason why it's hard to recycle 
plastic straws is because it's hard to sort them. So give me 
some hope, please.
    Mr. Boven. Yes, we should take hope. There is hope, and I 
say that because plastic pollution is now widely accepted 
across the world. And you see collaboration happening across 
the value chain that hasn't happened at least in my 22 years in 
the plastic industry. You see industry partners coming together 
making investments like the Alliance to End Plastic Waste, 
where over $1 billion has been committed to fund solutions to 
drive the ending of plastic waste. Now, is $1 billion enough? I 
know $1 billion is a great start, and we expect it to continue 
to grow.
    When you talk about biodegradability or bio-based plastics, 
those are two very different things. We think the focus needs 
to be on investing in infrastructure to recover the plastic and 
retain its value. That's where we're spending a majority of our 
time, and we don't want to get distracted with other things 
that aren't going to have a meaningful impact.
    Mr. Gonzalez. OK. Thank you. And I yield back.
    Chairwoman Stevens. It looks like we'll be calling the T&I 
Committee after this hearing based on those repeated claims.
    The Chair is now going to recognize Mr. Cohen for 5 
minutes.
    Mr. Cohen. Thank you. Good news for your son, a gift you 
can get him and I would get him if--and should get him and 
present to you, you can buy steel straws, and he'll have his 
own straw to get his milkshake out of, and it'll be real cold 
when it comes up, which is a nice feeling. Plastic does not 
give you that nice feeling, but a cold steel straw is a very 
attractive thing. On the internet you can get them--a set of 20 
for $9.99, wholesale, Amazon.com.
    Mr. Gonzalez. Mr. Cohen, his birthday was 2 weeks ago.
    Mr. Cohen. Oh, wow.
    Mr. Gonzalez. We accept. We accept.
    Mr. Cohen. Would he still accept gifts?
    Mr. Gonzalez. Oh, absolutely.
    Mr. Cohen. Good. Well, I will get him one.
    Mr. Gonzalez. Thank you.
    Mr. Cohen. A set. I've got a friend in Los Angeles who's 
big in the Anti-Plastics Coalition, Dianna Cohen, no relation, 
and she's given me steel straws. And I don't use straws that 
much, but when I do, I find a great sense of tactile, you know, 
pleasure out of using that steel straw, which I never got out 
of a plastic straw or certainly not a paper straw. So this is a 
whole new day for everybody really.
    Now, I would like to ask Mr.--is it Boven? Last year, I had 
a bill which passed the House that said we would not use 
plastic straws in the cafeterias, and it passed, but it passed 
over the objections of Dow Chemical I think. There was a 
Congressman from--that worked for Dow, represented Dow, et 
cetera, got a lot of money from Dow, and he worked against it 
and got--wanted to get--water it down. Why can't Dow come up 
with something that is good for the environment rather than 
things that are bad for the environment and work against us 
making the environment better?
    Mr. Boven. Congressman, thank you for your question.
    Mr. Cohen. I'm sure thank you is not what you really meant, 
but thank you for saying that.
    Mr. Boven. I'm not an expert in the policy side or familiar 
with the discussion that you're talking about, but we can have 
our D.C. office get back to and address that question.
    Mr. Cohen. Well, that'd be all right I guess, but, you 
know, we--I think we're changing our policies, and we ought to 
be--like right now, there's a whole bunch of plastic bottles 
with water out there. We really shouldn't be using plastic 
bottles with water, and I brought it in and all of a sudden I 
thought, what are we doing? I mean, we've got these cups here, 
this is great, but we ought to be carrying around our own and 
pouring water into them from the sink. Potomac water is fine.
    Mr. Sherman. I second that motion.
    Mr. Cohen. And--exactly. Good work, Brad. And not using 
plastic as much as we can. It's reduce, recycle, and reuse. 
Well, reduce, and that's what you--we've got to do because it 
is getting in the water and animals are dying. The--you know, 
they found whales with tons of plastic in their gut, and they 
think it related to their deaths. And there's all kind of sea 
life that is being killed because of plastic pollutions in the 
oceans. So we need to stop using plastic as much as we can.
    Dr. Menon, do you have any ideas on how we can maybe create 
or use paper, something else, anything other than plastic? And 
I know this is made of plastic, but this is reused.
    Dr. Menon. Mr. Cohen, thank you very much for the question. 
I do not often know of a material that would replace plastic so 
easily. It exists because of the availability, the ease, and 
the versatility. So it is not easily replaced. But maybe there 
are plant fiber solutions that we could think of that would be 
easier to at least degrade easily.
    But I would like to make a comment regarding one of the 
statements you made. So in the Mariana Trench, which is deeper 
than Everest is tall, every animal species found had plastic in 
their guts, so this is where we are when it comes to plastics 
recycling. And plastics recycling in the ocean, that's an 
entirely--I mean, so that's an impossible task. It shouldn't 
get there in the first place.
    Mr. Cohen. Yes, well, we need to find a way to reuse or 
reduce our use of plastics and then reuse whatever possible. 
And recycling is great and I recycle everything I can, and I 
hope Memphis does a good job on it, but, you know, it's just a 
different--today, I went--and I'm very proud of what I did 
today because I've been obsessing on it. These glasses, 
eyeglasses, I like them a lot, and I've had them for long time. 
And I got them to replace a pair of sunglasses I had that I 
really loved. They were American Optical Saratogas, which were 
the same glasses that John Kennedy wore, sunglasses. And so 
John Kennedy wore them, I wore them. You know, he was in the 
House, I'm in the House. That's as far as it goes.
    And my sunglasses--I broke them about 15 years ago I think, 
and then I broke these about 3 weeks or a month ago. Everybody 
in the world tells you, you can't repair plastic, it's 
impossible, it's done. Well, I'd saved those glasses from 15 
years ago, and these, and I took them to a guy up here at 750 
17th, and he fixed both pair of glasses. You can't see the--
that they were broken, and these were broken in two different 
places, $70, they're back together. Reuse your plastic frames. 
Don't buy new ones. Get them redone, 750 17th Avenue, right 
opposite the Executive Office Building, great deal.
    And with that, I want to say I love The Graduate, but 
plastics, no.
    Chairwoman Stevens. All right. The Chair is now going to 
recognize Mr. Sherman for 5 minutes.
    Mr. Sherman. Thank you, and thank you for holding these 
hearings and bringing them to my particular attention.
    The gentleman from Tennessee focuses us not only on reduce, 
reuse, and recycle, but also repair, so the fourth R, but once 
you get through all four R's, there's a reason why we prefer, 
from an environmental standpoint, paper straws to plastic 
straws, and that is that paper is biodegradable. How close are 
we to developing plastic products that have the advantages of 
plastic, pretty much the cost of plastic, but are in fact 
biodegradable? Mr. Boven? You guys anywhere close to that?
    Mr. Boven. Biodegradable--biodegradable plastics do exist 
today. PLAs (polylactic acid or polylactides) are an example. 
Biodegradable plastics present serious challenges to today's 
recycling infrastructure. They are not accepted into the 
infrastructure----
    Mr. Sherman. But they will--you know, a paper straw can't 
be recycled or I guess is often not recycled, but at least it 
biodegrades. How biodegradable? How long do you put it in the 
ground before it disappears?
    Mr. Boven. Well, Dow isn't producing those resins, but 
there are biodegradable plastics available. Again, from our 
perspective, when you look at biodegradability, 
biodegradability is not going to solve the plastic pollution 
issue that we have. We want to focus--we don't want to distract 
from----
    Mr. Sherman. Well, why is that? Right now, we're recycling 
9 percent, so it's 91 percent irrelevant whether it's a 
recyclable or nonrecyclable plastic; it's not going to be 
recycled. What is--what tax incentives or whatever could we 
give for biodegradable plastics? Does anybody have any 
proposal? Let me move on. We've got these islands of plastic in 
the--floating in the ocean, mostly plastic. There--is there any 
commercial value to that which you've subsidized could be used 
to be chemically recycled? Does anybody have an answer? None of 
our--yes?
    Dr. Menon. So harvesting the plastic from the ocean would 
be the problem.
    Mr. Sherman. Right, that's what I'm----
    Dr. Menon. So----
    Mr. Sherman. I mean, it's floating there----
    Dr. Menon. Right. So these plastics are----
    Mr. Sherman. But someone picking it up wouldn't be that--if 
we picked it up, what would--would we do anything useful with 
it?
    Dr. Menon. Yes, I think most of them are PET in there.
    Dr. Beckham. Yes, I mean, certainly, if you are able--if 
you are able to harvest it in an economically viable manner, it 
would probably be like the same plastics we get at materials 
recovery facilities already.
    Mr. Sherman. OK. So these pose a major threat to the 
environment and the oceans, with the proper incentives, 
somebody would pick them up, get some subsidy, and use those 
chemicals for something useful?
    Dr. Beckham. Potentially, but I think that the engineering 
challenges of going and harvesting plastics from the ocean are 
incredible and would certainly need a lot of investment to be 
able to do that at a scale that would actually make a 
difference.
    Mr. Sherman. OK. We have 8.3 billion metric tons of 
plastics produced globally, 6.3 billion becomes plastic waste, 
9 percent is being recycled. The U.S. only recycles 9 percent, 
China does 25, Europe does 30, so our 9 looks pretty weak. And 
then you realize some of our 9 is really in Chinese landfills. 
What can the U.S. do to promote recycling internationally? Does 
anybody have an answer? Do you want to comment? I'm looking at 
four witnesses, all of whom are extremely shy.
    Dr. Beckham. I mean, I would say that----
    Mr. Sherman. Yes.
    Dr. Beckham [continuing]. Again, I think the United States 
has the opportunity to lead the way from a technology 
development perspective to create chemical recycling 
technologies that will incentivize the reclamation of waste 
plastics. If we can do that in the United States, likely those 
technologies would be deployable outside the United States as 
well if they--if the economic incentive is there.
    Mr. Sherman. Is there any particular technology that you 
think the U.S. Government should be--you know, it's just on the 
cusp of doing something important but needs some research 
dollars or incentives. Is there any one area of research any of 
you would recommend? Yes, Mr. Boven?
    Mr. Boven. Yes, so research in creating new end 
applications would be very valuable. One of the problems that's 
been articulated is that there's not enough end markets for 
recycling, and so accelerating end market generation would 
create a home for recycled plastic.
    Mr. Sherman. My time is expired. Thank you.
    Chairwoman Stevens. The Chair would like to reclaim 5 
additional minutes for questions. This is what all of the 
Committee looks like, by the way, on the Subcommittee for 
Research and Technology.
    I wanted to kind of glom onto something, Dr. Beckham, that 
you had included in your written testimony where you wrote, 
``Given the amount of plastics in the food chain, plastics are 
commonly now found in the human body with potential 
toxicological effects that are not yet fully understood.'' And 
that sentence jumped out at me in a very stark way in part 
because I view all of you as the solution delivery vehicles of 
what we want to do on plastic recycling. You're on the solution 
end, you're on the problem-solving end.
    You know, we've heard a few comments. It's been couched 
within your testimony about some of the illegal dumping that's 
going on, some of the mismanagement, the missed opportunities 
to reuse, reduce, and recycle. But I was just wondering if you 
could kind of help me understand how we could understand these 
toxicological effects given that you are testifying before a 
House panel today.
    Dr. Beckham. I will note that I'm not a toxicologist, but 
with that caveat, I think certainly there are--there is a large 
research community that does toxicology and thinking about--
there was--for example, there was a paper published a couple 
weeks ago where they measured micro and sort of nano plastics 
in the air and found even in pristine environments that you can 
breathe this stuff in. How that affects the human body, how 
that affects animal life in general I think is still very 
poorly understood. And from my perspective I think that Federal 
research dollars could be put into the toxicology community to 
understand those types of things because we don't know. We 
simply don't know what the effects of those will be.
    Chairwoman Stevens. We find ourselves with a plastic 
paradox. OK. I wanted to capture that for the record.
    And at this time I would like to excuse my distinguished 
colleague, Ranking Member Jim Baird, who has an appointment to 
make. Obviously, this has been a robust hearing, and we've 
heard many rounds. I'm going to yield back the remainder of my 
time. That concludes--oh, Mr. Sherman has another one? Do you 
want to go again, Brad?
    Mr. Sherman. I was just going to ask one.
    Chairwoman Stevens. You can go again. Go ahead. I'm going 
to cede 5 more minutes to my distinguished colleague, Mr. Brad 
Sherman, who I am so glad joined us today, by the way. This is 
the full Research and Tech Subcommittee in action. Thank you. 
Go ahead, Brad.
    Mr. Sherman. It's been over 40 years since the last Federal 
law to promote national research and development program for 
improving methods of collection and recycling of solid waste. 
The law was a national effort to recover valuable petroleum-
based resources that were filling our landfills. It sounds like 
a lot of what we're facing today except that the purport 
volumes are exponentially larger, and the types of plastics are 
different. We need to find the right balance between the 
Federal Government having a mandate and States and localities 
doing it their own way. What do you gentlemen feel is the 
Federal role here both in research and in mandating procedures 
at the State and local level? I'll go straight down, Mr. 
Sincock.
    Mr. Sincock. Well, I think you bring out a very valid 
point. Just in looking at our own statistics for the city of 
Plymouth, we've seen our materials that we've landfilled from 
1992 go up from 1,648 tons to--in 2018 to 2,400 tons, but our 
recycling has also gone up a little bit during that period of 
time. So I think government--if the government is going to be 
involved in things, there has to be a national standard of 
what's acceptable. And I think from that--and industry can move 
forward from there at least on the collection standpoint.
    I agree with you on your plastic bottle there that you 
bring with you. In our case we've got about 30 employees in our 
city hall. One of our employees had the suggestion that we 
replace the drinking fountain with one where you could fill up 
your bottle. In just over a year, we filled up over 6,000 
bottles.
    Dr. Menon. Mr. Sherman, thank you very much for that 
question. The Earth is our home, and charity begins at home. 
Not every industry is profitable from the get-go. Sometimes 
governments have to intervene and help start industry. This in 
particular may be true when you're talking about ocean 
plastics. It may not be profitable. There's no way to foresee 
how technology changes and see how if things will be done 
differently in the future. But as of now, if we have to clean 
up the oceans, we have to pay the price. It is where we live. 
So the burden falls on us, on all of us to help industry in 
cleaning up the planet. Thank you.
    Dr. Beckham. So I will echo those sentiments very strongly. 
I think that one of the roles of the Federal Government is to 
support research that will allow for revolutionary changes and 
step changes in the way that we deal with today's plastics, as 
well as redesign for tomorrow's plastics. And that kind of 
fundamental research I think will be really critical for, 
again, enabling a new industry in the United States using 
chemical recycling.
    Mr. Boven. Yes, thank you for the question. I would answer 
your question echoing my comments earlier about definitions. 
The Federal Government can help with definitions around what 
recycling is. This will be important as, again, advanced 
recycling technology is brought to the forefront.
    Two, I would say recycling certification, meaning that the 
advanced recycling systems that we're talking about 
depolymerizing the product, putting it back into the front end 
of the polymer manufacturing process, we want to be able to 
certify what was recycled and then give those certifications to 
our customer and so they can feel confident that they're 
purchasing recycled material, much like, say, wind energy as an 
example.
    And last, I would say the Federal Government can help in 
piloting programs. There's a lot of work being done at looking 
at new, again, end-market applications for recycled plastic, 
and so the government can help with piloting these programs to 
bring them to scale. Dow, as an example, is doing work with 
using recycled materials in roads and other durable 
applications like that.
    Mr. Sherman. I yield back.
    Chairwoman Stevens. Before we bring this hearing to a 
close, we obviously want to thank our distinguished witnesses 
again for testifying before us on the Committee today. I think 
you answered the tough questions as best as you could. You gave 
us some things to think about. I believe that we're going to 
meet the charge of this time. I believe that there is a 
rallying call.
    I represent a district in Michigan surrounded by freshwater 
lakes. I'm in a State surrounded by freshwater lakes. And as 
people hear the alarming statistics around the equivalent of a 
trash can or--excuse me, it's a dispensary of trash being 
dumped into the ocean per minute, that's alarming, going into 
the farthest trenches of our ocean and seeing that there's 
plastic waste there, that's not a result that any of us 
necessarily want to leave. But that's why I think we call it a 
plastic paradox because plastic has improved our lives. It has 
made it so that we can have food security and food delivered 
throughout our country and into the mouths of people and 
medical advancements.
    But we've got to ask ourselves where and how we are going 
to meet this charge. Does it fully fall on the consumer? I 
believe there are individuals who want to step up and 
participate in recycling programs and find an altruistic value 
in doing so because they should and because they have a 
municipality that enables them to do that.
    We have industry and public-private partnerships. We've got 
certainly great expertise that's researching this and 
understanding the chemical compounds. But we know we need to do 
better, and so we can turn to our colleagues throughout Federal 
Government and all of an interagency approach to meeting the 
technological considerations.
    I think, Mr. Boven, we'd certainly like to continue to hear 
from you on the work that you are doing on the corporate side, 
but as it matches with what the National Institute of Standards 
and Technology is hopefully going to bring forward. And we will 
continue to partner with you and support you. I will say $3.2 
million with Dr. Menon goes a long way.
    The record on this hearing will remain open for 2 weeks for 
additional statements from Members and for any other additional 
questions that the Committee may ask of our witnesses.
    At this time, our witnesses are excused, and the hearing is 
now adjourned.
    [Whereupon, at 3:46 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
